,
i

Supreme Court, U.S.
FILED

\

No. 20-

Eli

:

DEC (H 2020 .
OFFICE OF THE CLERK

In the
SUPREME COURT OF THE UNITED STATES
JAMES WIDTFELDT, Petitioner
V
UNITED STATES, Defendant
US DISTRICT COURT OF NEBRASKA 8:18CV453
ADMINISTRATIVE LAW JUDGE ARTHUR WELP AND US TAX COURT 1590710 APRIL 26, 2011, OMITTED ALJ WELP DECISION ON AGENT POLSKY
APPEAL, WENT UP TO THE 8th CIRCUIT COURT OF APPEALS IN 11-2285,
AND THENCE TO THE US SUPREME COURT IN 2012 WHERE CERT WAS
NOT GRANTED AS MATTER WAS AFFIRMED AS TO ALJ WELP DECISION OF
NO TAX DUE WHERE WELP WAS APPOINTED BY THE US TAX COURT
CHIEF JUDGE IN Ib02 FOLLOWING SEVERE DISPUTES BETWEEN LAWYER
JANET KROTTER CHVALA, DISBARRED IN 2019, AND IRS AGENT,
MICHELLE SEGER MOSER BASED IN OMAHA, TRIGGERING THE WELP
APPOINTMENT.
OUT OF THE US 8th CIRCUIT COURT OF APPEALS 19-3372 IN 2019-2020
FROM US DISTRICT COURT OF NEBRASKA 8:18 CV453 AND US 8th CIRCUIT
COURT OF APPEAL&A^D LATER PETITIONS FOR WRIT OF CERTIORARI
PRECLUDED BY’ ALJ WELP DETERMINATION OF NO TAX DUE IN IN 2002
THROUGH 2012.
PETITION FOR A WRIT OF CERTIORARI
REDONE FOR LETTER SIZE PURSUANT TO ORDER OF SEPTEMBER 11, 2020

JAMES WIDTFELDT
PO BOX 877, ATKINSON, NEBRASKA 68763

I.

•i

402-336-2796
Email: techtute@yahpo.com
j

s

RECEIVED
DEC 16 m

Page i

QUESTIONS PRESENTED
QUESTION 1* Whether the failure to include testing and treatment of Lyme
spirochete Bb as a pre-trial requirement of all criminal and most civil cases under
the 42 USC 1983 Federal Civil Rights Act, particularly in the West annotations,
section 2766 Medical care, pretrial detainees, generally, section 2767Serious
medical need\ medical care, pretrial detainees, section 1603Medical malpractice.
deprivation ofconstitutional or statutory rights, and section 1604. Medical service.
deprivation ofconstitutional or statutory rishts. because of a number of sometimes
conflicting developments in the science of medicine, l) efforts to conceal Lyme as a
germ warfare agent since about 1993 in the early stages of the Bill Clinton
presidency, and 2) the uncanny ability of the Lyme spirochete, hereinafter Bb, to
almost instantaneously sense danger from antibiotics and curl up into a ball and
exude a wax protective shield or protective film or biofilm and thereafter remam
inside the biofilm and inactive even for years until danger passes after Bb senses
danger in the form of antibiotics or even soap and antiseptics, greatly reducing the
intended effect antibiotics and pre-surgical cleaning, had until 2013 discovery of
stevia as an ajuvant, resulted in widely held beliefs that lyme was a fictitious
disease.
QUESTION 2- Whether the 2016 election of Donald Trump has led to the
acceptance of the 300 world wide Lyme species as no longer being a fictional
disease. In 1999*2000 one ILADS founder, Dr Joe Burrascano, MD of the
International Lyme and Associated Diseases Society, hereinafter ILADS, was sued
and brought into a civil trial in Manhattan, New York City on charges brought by
the New York State Medical Boards in a deprivation of license trial, for about a one
year trial in 1999*2000, on 33 charges basically alleging Burrascano was wrongly
practicing medicine to treat a nonexistent or fictional disease, prosecuted for his
discoveries regarding Lyme disease then thought to be a fictional disease and use of
more powerful antibiotics than others had previously used to fight Lyme.
Burrascano won on 30 charges and had to do minor remedial work on the other
three charges, thanks, it is reported, to a judge who had personal knowledge that
Lyme was not fictional.
QUESTION 3- Will this court now order testing and treating of Lyme as a
necessary pretrial test and treatment in all criminal and hopefully most civil cases.
In many criminal cases, there is an appearance of criminal activity where in fact the
behavior was largely or solely caused by a brain infection with Lyme and/or the
Questions Presented for Discussion in this Petition for Certiorari Page i

Page ii

Rickettsia Helvetica or Swiss Agent, created a backlog of wrong or incorrect
trials in nearly all criminal and most civil cases in the nation’s courts since the
discovery of the Lyme spirochete in 1981 by Willi Burgdorfer at the Hamilton,
Montana laboratories of the US government called Rocky Mountain Laboratory (see
P 11, Bitten, The Secret History ofLvme Disease and Biological Weapons bv Kris
Newby, ISBN 978*0’06-289627’8, Harper Colllins Books 2019), and the great
advances in treatment once thought difficult or impossible because of the ability of
Lyme Spirochetes to exude a wax coating making a biofilm to protect the
spirochetes from antibiotics, now not as large a factor with ajuvant stevia first
announced at the 2013 ILADS convention in San Diego as part of a Masters Thesis
program by Dr Eva Sapi at the University of New Haven, Connecticut, in a contract
authorized through Dr Burrascano and the University of New Haven. There is
continuing research on an about 20 percent minority of Lyme Spirochetes not now
fully treatable with the adjuvant stevia and regular antibiotics.
QUESTION 4* Whether the STEVIA ajuvant with a wonderful beneficial
effect on Lyme treatment, first researched, discovered and announced for
presentation at the 2013 ILADS conference in San Diego, CA with an ILADS
research grant, by Dr Eva Sapi of New Haven College and her Masters Degree
student (name unavailable), which was a cheap sugar substitute being sold as a low
calorie alternative for those with weight concerns, greatly assisted antibiotics to
attack the Lyme Spirochete, expediting remarkable treatment and recoveries from
Lyme Disease. First announced as a Masters Thesis by Dr Eva Sapi’s student from
India in the 2013 ILADS;meeting in San Diego with Joe Burrascano of ILADS
making the research grant to Dr Eva Sapi for her Master’s degree program at New
Haven College in New Haven, Connecticut, likely to justify Lyme testing and
treatment for all citizens, and pre-trial for all defendants, due to the widespread
(probable 70 % of US population) lyme disease, with about 5 percent of those
becoming unintentionally violent?
QUESTION 5: Whether all criminal and many civil cases back to at least
1981 discovery of Lyme disease agent spirochete, must be redone or the defendants
exonerated, where trials to be correct must be preceded with stevia administration
and then antibiotics designed to kill the lyme spirochete, for the 300 approximately
world wide subspecies of Lyme Disease of which about 100 occur frequently in the
US, and the other 200 can be found in unwitting infected travelers in most
International Airports in the US.

Questions Presented for Discussion in this Petition for Certiorari Page ii

Page in
QUESTION 6- Whether mandatory stevia (a sugar often found on grocery
store shelves and advertised for its low calory content and packaged in tiny paper
containers small enough so the caloric content rounds down to zero) and antibiotic
treatment of all persons about once per year from birth would eliminate the vast
majority of prostate and breast cancer cases in the United States as well as other
locations to which an out of control cancer invasion often spreads.
QUESTION 7: Whether stevia and antibiotic treatment would eliminate
“Uncontrollable Fits of Rage” caused by severe brain inflammation of Lyme
infection and Swiss Agent described by Ron Lindorf, an entrepreneur and adjunct
professor at Brigham Young University, in enough persons nationwide infected with
Lyme as a precipitating cause of “criminal behavior” to greatly reduce the 3 million
persons in prison and the additional 3 million persons convicted without prison, in
the United States.
QUESTION 8- Whether, after numerous wrongful office break-ins by the
Atkinson City Police using carpenters and various subterfuges at James Widtfeldt
Atkinson office, the IRS is now getting even more brazen to break into Widtfeldt
records in violation of the Administrative Law provisions restricting all Estate and
Gift Tax collections efforts to conform to the Administrative Law Judge Arthur
Welp determinations that James Widtfeldt completely bought out his parents
Albert and Gusteva Widtfeldt in 2004, and that subsequent efforts by the IRS to
conceal or bypass the ALJ Welp determinations without first identifying the Welp
record as required entitle James Widtfeldt to the $1 million damages of the 1998
IRS Restructuring and Reform Act, for each of hundreds of transgressions
extending over at least 16 years, for an award to Widtfeldt of $1.6 billion.
QUESTION 9: Whether the IRS through wrongful Judge Robert F. Rossiter,
Jr. can create a second appeal through the US District Court in case US vs
Widtfeldt 8^18 cv 453 without using or referencing the ALJ Arthur Welp 2002-2012
record which determined that James Widtfeldt had fully bought out his parents
Albert and Gusteva Widtfeldt by November, 2004, prior to the death of Gusteva in
2006. The Administrative Law Case Robinette v Commissioner ofthe IRS. 439 F3d
455 (8th Cir 2006) cited by Glicksman and Levy in their text Administrative Taw
Agency Action in Legal Context, Third Edition 2020, University Casebook Series,
ISBN 978-1-64020*627-4 states on page 71 of the casebook, last complete paragraph
on the page, “It is a basic principle of administrative law that review of
administrative decisions is ‘ordinarily limited to consideration of the decision of the
agency ... and of the evidence on which it was based. > « United States v Carlo
Biancbi & Co.. 373 US 709,714-71 5 (1963).
Questions Presented for Discussion in this Petition for Certiorari Page iii

Page iv
QUESTION 10: Whether a 2010 to 2013 first appeal conducted by IRS Agent
Douglas Polsky did ignore the Welp AU findings and orders which were favorable
to Widtfeldt as in no estate or gift tax due, in the US Tax Court case 15907-10,
hearing or trial with US Tax Court Judge Diane Kroupa presiding April 26, 2011.
Judge Kroupa denied Widtfeldt motions without allowing the motions to be filed
(about 25 cases and time for one) which was a nod to the US Tax Court Chief Judge
appointment of Arthur Welp as ALJ, as Judge Kroupa knew Widtfeldt would have
her order approving the Welp determinations, and precluding all other
determinations in her court or elsewhere (such as Judge Rossiter, Jr. bizarre
attempt to create a second appeal in 2018 through the US District Court of
Nebraska). Judge Kroupa claimed Kroupa was scheduled for about 25 cases on
April 26, 2011, and probably was as the courtroom was full of persons who were
strangers to Widtfeldt, and Judge Kroupa had time for only one case (her tension
and stress was palpable from her tone of voice), and since Widtfeldt was not the
case Judge Kroupa tried in full, the matter by default went to the rulings of ALJ
Welp. Judge Kroupa later entered other orders for the IRS which appeared to allow
taxes due to make the far left Democrat Polsky and the IRS happy, but the later
Kroupa orders were precluded or nullified by the earlier April 26, 2011 ALJ Welp
ridings from 2002-3-4-5-6-7-8-9-10-11, and then the Aprd 26,2011 Judge Kroupa
order denying Widtfeldt motions, which April 26, 2011 Kroupa order reverted all of
15907-10 back to ALJ Welp decisions, and no estate or gift tax was due from any of
Widtfeldt parents Albert, Gusteva or the undersigned James Widtfeldt.
QUESTION 11: Whether Judge Rossiter, Jr. of the US District Court can
lawfully over ride and ignore ALJ Welp, without citing or discussing a US
Administrative Law Jud^6 Arthur Welp record which is supposed to be the only
record on appeal of Welp [see p 71, last full paragraph of ,Glicksman and Levy,
Administrative Law Agency Action in Legal Context. Third Edition, University
Casebook Series, ISBN 978-1-64020-627-4] appointed by the Chief Judge of the US
Tax Court, the same ALJ Welp who found that James Widtfeldt had completely
bought out his parents Albert and Gusteva Widtfeldt by 2004, and hence owed no
estate or gift tax. James Widtfeldt in a 2001 appeal following an effort to get US
Treasury approval of James Widtfeldt buy out of James parents Albert and Gusteva
Widtfeldt from 1973 to Albert’s death in 1996 and Gusteva Widtfeldt death in 2006
using private lawyers and negotiating with the IRS.
QUESTION 12: Whether Judge Rossiter, Jr. is also wrongfully breaking in
from the outside into the chain of appeal already established in 2010-11-12-13*14
from Arthur Welp ALJ, thence to the US Tax Court, thence to the US 8th Circuit
Questions Presented for Discussion in this Petition for Certiorari Page iv

Page v
Court of Appeals and thence to the US Supreme Court, and in fact, Judge Rossiter,
Jr has.no standing to conduct such a separate appeal from the IRS which IRS is
already determined to be entitled to nothing by Judge Kroupa and on appeal, and
where the one and only allowed appeal already transited the US Tax Court and
thence to the First Circuit Court of Appeals.
QUESTION 13* Further, whether Judge Rossiter, Jr. is also wrong in
attempting to prosecute more than one appeal, so that if the IRS had gone first to
Judge Rossiter in 2010 and then upward on appeal through the US 8th Circuit Court
of Appeals, the US Tax Court would not have-been a viable appeal alternative.
Only one appeal is allowed, and Judge Rossiter, Jr has already been superseded by
that one appeal through the US Tax Court and thence affirming James Widtfeldt.
QUESTION 14: Whether the correct buy out date of 1994 for Albert, Gusteva
and James Widtfeldt had been calculated that James Widtfeldt buy out begun after
a near fatal Albert Widtfeldt heart attack in 1973 was completed in 1994, and the
IRS challenged all transactions, and after a lengthy investigation beginning in
2002, Arthur Welp, ALJ determined that James Widtfeldt had bought out Albert
and Gusteva Widtfeldt by 2004, about ten years later than James, Albert and
Gusteva Widtfeldt computations. Albert Widtfeldt 1973 heart attack and Gusteva
Widtfeldt osteoporosis and repeated pneumonia attacks from 1973 were treated
successfully partly because of James Widtfeldt experiences talking with other
students going into the Pre Med programs and thence often to Albany Medical
College near RPI, many suffering from Lyme disease, a disease not as yet named
until the 1981 discovery of the Lyme Spirochete by Willi Burgdorfer, but rampant, in
New York State and New York City which many RPI students were from and
knowledgeable about. James was earning the Applied Mathematics Ph.D. in a
specialty designed and financed by the Office of Naval Research, at RPI in Troy,
New York at Rensselaer Polytechnic Institute, typically leading to a job at the Office
of Naval Research in or near Washington, DC.
The US Tax Court decision in case 15907-10 adopted the AU Welp decision
and audit conclusion, although agent Polsky did everything to muddy the court
actions.
QUESTION 15: Whether ALJ Welp was correct in his 2002-4-6 orders
determining James Widtfeldt had bought out his parents by 2004. ALJ Welp spent
many hours reviewing the records, and Welp made a series of decisions, each sent
up through the Administrative Law Judge channels and probably to Chief Judge of
the US Tax Court for review, during 2002 through 2011 and Welp sent out on May
Questions Presented for Discussion in this Petition for Certiorari Page v

Page vi
5, 2002 one order which Welp believed would prevent any further appeals or actions
by the IRS, and thereafter, basically affirming on tens of thousands of pages of
documents collected by the Administrative Law Judge Arthur Welp. By 2004 Welp
determined no estate or gift tax was or could be due from the Widtfeldts, and
Gusteva and Albert had used up all of their assets by November, 2004, and return
of all Widtfeldt estimated payments to James Widtfeldt totaling $193,362.36 pius
interest (15% per annum), inflation (35 % per annum) and penalties, was ordered.
QUESTION 16^ Have the misbehavior of Agents Polsky, Daugherty,
Shoemaker, Kelly, Avetta, Wollitzer, Wroble, William Wilkins, Bruce Ellisen, GS
Rothemberg, and Anthony Sheehan and others justified damage claims by
Widtfeldt of $1 million each per year from 2004 to 2020 and any future time,
pursuant to the 1998 IRS Reform Act Section Civil Damages for Unauthorized
Collection Actions paragraph 1101, nowpart.of the Internal Revenue Code section
7432 and 7433?
QUESTION 17: Have the misbehavior of break-ins to Widtfeldt office by
agents of the City of Atkinson and hence of the Nebraska Supreme Court, and never
repaid Widtfeldt estimated tax payments in 1999-2000 of $193,300 approximately
used to shortchange James Widtfeldt and used for various law license forfeitures by
the Nebraska Supreme Court, constituted conflict of interest by the Nebraska and
other State Supreme Courts invalidating Widtfeldt lawyer license suspension,
failure to allow for Lyme disease discovery pre-trial in criminal prosecutions in
Nebraska and across the US, and other miscellaneous misbehavior justified $1
million each per year from 2003 to 2020 for the wrongful actions of each member of
the Nebraska Supreme Qourt?
QUESTION 18- Is Rickettsia Helvetica a co-infection with the Lyme
spirochete and a dangerous disease causing organism which must be treated prior
to trial or pre-trial pursuant to the 42 USC 1983 federal civil rights of all US
Citizens? On pages 201 and 202 of Bitten, the Secret History ofLvme Disease and
Bioilogical Weapons by Kris Newby, ISBN978-0-06 289627-8, copyright 2019,
published by HarperCollins Publishers, NYNY, we find that “The Swiss Agent” is a
bona fide rickettsia of the spotted fever group (p 199), and was later called the
Rickettsia Helvetica and Willi Burgdorfer was officially credited with the discovery
in 1993 (see p 206 of Bitten, Supra) and said Rickettsia Helvetica was found often
with Lyme disease, and then suspiciously with almost no discussion by Willi
Burgdorfer research papers, deleted by Burgdorfer as a possible co-infection with
Lyme.

Questions Presented for Discussion in this Petition for Certiorari Page vi

Page vii
QUESTION 19^ Is the James Daughefty “Notice of Federal Tax Lien” a
wrongful violation of the requirement that the Arthur Welp, ALJ audit of Albert,
Gusteva and James Widtfeldt 2002-2012 must be the record of which all appeals
including the 2010-11-12 US Tax Court Appeal consolidated from 7 appeals to case
15907-10 in the US Tax Court, is to be appealed? Since the Welp, ALJ record was
not any part of the said US Tax Court Appeal in 15907-10, the said appeal, and any
further appeals also carrying the same defect, was defective and the Judge Rossiter,
JR and the Judge Kroupa Tax Court orders therein are automatically nullified or
reduced to approving the Welp conclusion of no federal estate or gift tax due from
any of James, Albert or Gusteva Widtfeldt.
QUESTION 20- Are the misbehaviors of Judge Rossiter and Judge Kroupa,
and the appeals judges, of the US 1st Court of Appeals and the US 8th Court of
Appeals, who refused to produce the Welp, ALJ orders in the earlier US 1st Court of
Appeals, and the motion to produce decided February 24, 2020 grounds for removal
of the US Court of Appeals Judges, as well as the Nebraska Supreme Court Judges
whose refusal in 2005 to accept the necessity of testing and treating for Lyme, was
so wrong that the Nebraska Supreme Court could not allow testing or treating for
Lyme leading to and resulting in wrongful trial and conviction of all cases after the
1981 discovery by Burgdorfer of Lyme, and the Nebraska Courts had to wrongfully
put Widtfeldt on suspension of his law license, to avoid having to deal with their
own wrongful conduct?
QUESTION 21- Is the packing of the Nebraska Supreme Court by Democrat
Governor Ben Nelson, and the wrongful Ben Nelson harassment of all Republican
Supreme Court judges to quit about 1998 so that wrongful governor Ben Nelson
could pack the court with all Democrats and over-ride reasonable defenses to
criminal prosecution, reason to incorporate recent research advances into what had
been a poorly understood area and by pre-trial treatment of those afflicted, greatly
reduce the rate of criminal convictions in both Nebraska and the US? Is the
wrongful Rossiter, Jr. 8;18 cv 0453 tax prosecution of Widtfeldt part of the
Democrat party effort to sabotage Widtfeldt practice of law?
QUESTION 22: Is the hiding of the ALJ Welp determination that Widtfeldt
owed no estate or gift tax, done at Case 19-3372 of the US Court of Appeals 8th
Circuit in an Order of February 24, 2020, with order entered at the direction of the
court, at St Louis, Missouri grounds for removal of all the Judges on the US 8th
Circuit Court of Appeals for the reason of violation of 18 USC 2071, hiding
evidence?

Questions Presented for Discussion in this Petition for Certiorari Page vii

Page viii
QUESTION 23- Is the hiding of the ALJ Welp determination that Widtfeldt
owed no estate or gift tax by US District Court Judge Robert F. Rossiter, JR.
grounds for removal of said Judge Robert F. Rossiter, Jr, where said Judge has
entered an Order, Judgment and Memo conflicting with the Welp Order where
Rossiter, without either trial, or pre trial, or any other hearing to take evidence,
entered various orders and judgments claiming wrongly that James Widtfeldt owed
over $1 million in estate and gift tax, grounds for removal of Judge Robert F.
Rossiter, Jr?
QUESTION 24• Is the wrongful keeping and withholding from .Tampa
Widtfeldt, by the US Treasury, without any legitimate estate or gift tax due of three
Gusteva Widtfeldt payments demanded in 1999-2000 for estimated estate tax
payment, of
$36,000 on November 19, 1999
$156,955.92 on November 22, 1999 and

\

$406.44 on February 15, 2000
From the dates of the said payments to the US Treasury and until the present at
least May 5, 2020, wrongly retained for no good reason for over twenty years,
grounds for payment of $1 million per year for each of twenty years from May 1,
2000 penalty to Widtfeldt for wrongfully charged and retained Widtfeldt payments,
now worth $274,784,440,534,859.00 plus the original.$20 million to Widtfeldt.
QUESTION 25- Is the refusal of Judge Robert F. Rossiter, Jr. to use the
Welp record from 2002 thfbugh 2011 and the appeal to the US Tax Court and to the
US Court of Appeals in Case 11-2285, and refusal of said Judge to abide by the
results of the first cases in the US Tax Court in case 15907-10, determining that the
Welp determinations were and are correct and no estate or gift tax is due from any
of James, Albert or Gusteva Widtfeldt, binding on Judge Rossiter, and the appeal to
the US 8th Circuit Court of Appeals in Case 11-2285 James Widtfeldt v
Commissioner of the IRS, with a final Order of March 26, 2012 in a rehearing en
banc by the court, which is denied, and further prevents Judge Robert F. Rossiter,
Jr from attempting to re-decide in 8:18 cv 0453 in the US District Court in 2018,
these matters finally determined on March 26, 2012 upholding the ALJ Welp final
determination that James Widtfeldt owed no estate, gift or transaction taxes on
James’ buyout of his parents from February 1973 to February 2006, where the
buyout was completed in November, 2004 according to Welp, and in 1994, ten years
earlier, by the James, Albert and Gusteva Widtfeldt computations.
Questions Presented for Discussion in this Petition for Certiorari Page viii

Page ix
QUESTION 26: Is the use of a Pitney Bowes Postage Machine to greatly
delay mail delivery by a month and a half or longer, being practiced by Judge
Rossiter to delay mail delivery to Widtfeldt?
QUESTION 27- Is James Widtfeldt entitled to Social Security based on the $1
million equivalent Office Of Naval Research salary for this Ph.D. in Underwater
Sound Transmission?
QUESTION 28: Is the wrongful tax hen at 14 page 10646 of the Holt County Tax
Liens dated March 26, 2013 at 4 pm, notwithstanding the determination by ALJ
Welp owed no federal or state estate or gift tax, with no tax due affirmed on appeal
to Judge Kroupa in 15907-10 in the US Tax Court on April 26, 2011, and the 8th
Circuit Court of Appeals in case 11-2285 on March 26, 2012 affirmed with no tax
due, and the US Supreme Court denied certiorari in two attempts at appeal
thereafter, grounds for awarding James Widtfeldt, damages under IRC Sections
7433 and 7432 relating to civil damages for failure to release a hen.
QUESTION 29: Is the wrongful attempt to have a Rossiter tax sale on March 4,
2020 with no tax due hearing and no return of the 1999-2000 payments originally
paid to the US Treasury of $36,000 on November 19, 1999, $156,955.92 on
November 22, 1999, and $406.44 on February 15, 2000 [as confirmed in a May 8,
2012 conference with Pat Betterman, private lawyer from Omaha, tel 402-333-3334
and Thomas Wroble of the IRS at tel 314-612-4653], with the 1999-2000 estimated
tax payments in 2004 determined by ALJ and IRS agent Welp as necessary to be
refunded, where Welp was appointed by the US Tax Court Chief Judge to comply
with the 1998 IRS Restructuring and Reform Act, to be refunded as Gusteva’s care
had eaten up ah of her and Albert Widtfeldt assets, and approved on appeal as
being not needed, and now worth over $642 million as shown on the attached
spreadsheet with interest at 15 percent per annum and inflation at 35 percent per
annum:
$36,000.00
11-19-1999
$193,362.36
$290,043.54
$435,065.31
$652,597.97
$978,896.95
$1,468,345.42
$2,202,518.13
$3,303,777.20
$4,955,665.80
$7,433,498.70

$156,955.92
11-22-1999

$406.44
2-15-2000

11-22-1999
11-22-2000
11-22-2001
11-22-2002
11-22-2003
11 -22-2004
11-22-2005
11-22-2006
11-22-2007
11-22-2008

Questions Presented for Discussion in this Petition for Certiorari Page ix

Page x
$11,150,248.04
$16,725,372.06
$25,088,058.10
$37,632,087.14
$56,448,130.72
$84,672,196.07
$127,008,294.11
$190,512,441.17
$285,768,661.75
$428,652,992.62
$642,979,488.93
$964,469,233.40

11-22-2009
11-22-2010
11-22-2011
11-22-2012
11-22-2013
11-22-2014
11-22-2015
11-22-2016
11-22-2017
11-22-2018

11-22-2019
11-22-2020

QUESTION 30- Was the tax sale of March 5, 2020 ordered wrongly by Judge
Robert F. Rossiter, JR. while the US was in lockdown over the COVID 19 virus
epidemic, a wrongful exercise of Judicial authority prevented by the 1998 IRS
Regulation and Reform Act which also made determinations of tax due such as
Arthur Welp, AU, appointed to this case from 2002 to 2011 by the US Tax Court
Chief Judge to comply with the 1998 IRS R and k Act, violative of Section 1101 of
the Chapter 11 Taxpayer Rights and Examination Activities of said 1998 IRS R and
R Act, thereby authorizing $1-million damages to James Widtfeldt for each dollar of
the wrongful IRS claim, for total damages to James Widtfeldt of over $1 trillion
dollars?
QUESTION 31^ Does the Lyme epidemic with the disease agent discovered by Willi
Burgdorfer in 1981 and now named Borrelia Burgdorferi (hereinafter Bb), but
seemingly unbeatable during the years 1981 to 2013 due to the nature of the Lyme
spirochete to respond to antibiotic danger near instantly curl up and exude a wax
coating or biofilm nearly&impervious to antibiotics and remain thus protected
(hereinafter hardened) for terms of multiple years of inactivity or until danger
passed, with first substantial treatment discovered on or shortly before the
October-November 2013 annual meeting of the International Lyme and Associated
Diseases Society, hereinafter ILADS, on Miracle Island, in San Diego harbor,
pursuant to a research contract between Joe Burrascano, MD as head of ILADS
with Dr Eva Sapi of the New Haven College, in Connecticut, whose'Masters student
(name unknown) discovered that the sugar Stevia when given shortly before or
contemporaneously with antibiotics, would cause the Bb spirochete to fail to harden,
remaining vulnerable to the antibiotic and restoring the antibiotic to full
effectiveness and causing significant Jarisch-Herxheimer flares (a human immune
reaction to the antibiotic —stevia killing of many Bb spirochetes previously hiding
from the human immune system).
j

Questions Presented for Discussion in this Petition for Certiorari Page x

Page xi
QUESTION 32: Have real estate values on private property been artificially
inflated by the United States wrongful hiding or ignoring Bb infections among
property owners. Recent incidents such as the ICE raid on the O’Neill area
involving primarily Juan Pablo Sanchez Delgado, where Juan Pablo had been
importing labor from Central America and Mexico and then paying out about half
the minimum wage to workers, pocketing substantial commissions while charging
about 20 percent more to the businesses for which the workers worked.
QUESTION 33- In 1999*2000 James Widtfeldt and his mother Gusteva made three
estimated tax payments to the US Treasury or IRS of $36,000 on November 19,
1999, $156,955.92 on November 22, 1999, and $406.44 on February 15, 2000 during
the time when James Widtfeldt was paying off his parents for their assets, and
James Widtfeldt and his parents agreed in 1994 that James Widtfeldt had paid his
parents in full by personal services and in about half of the purchases, finding
properties for sale for which Albert and Gusteva Widtfeldt felt comfortable loaning
the purchase price and then continuing to appear to own through deeding but with
an understanding that the 1973 Dr Carstens letter warning that Albert Widtfeldt
should put his affairs in order and prepare, essentially for near term death served
as a conveyance to or by Dr George John Carstens cutting off James inheritance and
turning it into a purchase. Albert and Gusteva Widtfeldt ended up with loans and
trust deeds and other legal documents limiting their ownership to helping James
Widtfeldt find and buy but with some protection in the event of a total market
collapse and failure to have time to file a foreclosure in court and foreclose such as a
bank would have to do. Finding and importing medical treatment earlier developed
in New York State following Lyme or Bb escapes from the Plum Island Germ
Warfare installation (see Lab 257—Caution the Distnrhinfr Rtnry ofthe
Government’s Secret Germ Laboratorvhv Michael Christopher Carroll, ISBN 978*
06*078184*2, William Morrow Publishing of HarperCoflins Publishers © 2004*5 see
pp 26* 27.)
QUESTION 34: Can wrongful Judge Rossiter, Jr. evaluate James Widtfeldt
purchase including only a short time in the 1990s and ignoring the 1973 through
1994 duration of purchases, ignore the fact that a doctor’s order in 1973 cut off
Albert and Gusteva Widtfeldt ownership due to Albert Widtfeldt heart attack,
Gusteva Widtfeldt osteoporosis and pneumonia, and Judge Rossiter, Jr ignored
ALJ Welp orders and record of 2002*2011, which by page 71 of Glicksman and Levy,
The Administrative Law Case Robinette v Commissioner ofthe IRS. 439 F3d 455
(8th Cir 2006) cited by Glicksman and Levy in their text Administrative Law Aeencv
Action in Legal Context, Third Edition 2020, University Casebook Series, ISBN
Questions Presented for Discussion in this Petition for Certiorari Page xi

Page xii
978-1-64020-627-4 states on page 71 of the casebook, last complete paragraph on
the page, It is a basic principle of administrative law that review of administrative
decisions is ‘ordinarily limited to consideration of the decision of the agency .. . and
of the evidence on which it was based.’ “ United States v Carlo Biannhi Mr Hn 373
US 709,714-71 5 (1963). Further reading induces the reader to see that the Welp
ALJ record is mandatory and that failure of the IRS to produce the Welp record in
both the 15907-10 US Tax Court case, and in the 8:18 cv 0453 US District Court of
Nebraska, Rossiter, Jr presiding, nullified any decisions except to adopt the Welp
ALJ record and decisions. The reason for the requirement that appeals courts
accept the Welp ALJ decision as the appeal record, is that the US Congress in the
1998 IRS Restructuring and Reform Act required the AU Welp decision to be the
centerpiece of all appeals of Welp, because appeals judges would otherwise not be
aware of and ignore the ALJ cases being required by the US Congress.
QUESTION 35* Adam Schiff, Nancy Pelosi and Chuck Schumer and the unlawful
Democrat Ben Nelson appointees to the Nebraska Supreme Court caused by Nelson
threatening existing Republican Judges into quitting early in poorly documented
but scandalous and wrongful behavior by Nelson, are involved in an unlawful effort
to hide both Lyme and COVID 19 by staging the Trump impeachment in January
and February 2020 to distract from the Chinese releases of germ warfare agent
COVID 19 in violation of the Federal Civil Rights Act 42 USC Section 1983 and
particularly in the West annotations, section 2766 Medical care, pretrial detainees^
generally, section 2767Serious medical need medical care, pretrial detain#****,
section 1603Medical malpractice, deprivation ofconstitutional or statutory rights.
and section 1604, Medical service, deprivation ofconstitutional or statutory rights
&

QUESTION 36: The series of supposed discrimination cases against Widtfeldt for
allegedly discriminating against Juan Pablo Sanchez Delgado and others from 2006
through 2009 involving near daily generation of dozens of court pages before Juan
Pablo Sanchez Delgado started bringing in illegal aliens at half price wages about
2015, were later entirely changed by the 2018 arrests and deporting of Juan Pablo
Sanchez Delgado and about 150 to 175 others in the ICE raids begun about August
8, 2018, in other words, real estate in Nebraska was never actually valued at its
true lower value, but rather at the highly inflated values that Juan Pablo Sanchez
Delgado inspired by his wrongful illegal importation of undocumented aliens from
Central America and Mexico, with about half price labor, with wages far below US
minimum wage and about 10 percent Delgado commission on the 175 half price
alien workers, in other words, 175 at half price is about equal to 88 at full price or
$10 per hour times 50 hours per week or $500 per week, so Juan Pablo Sanchez
Questions Presented for Discussion in this Petition for Certiorari Page xii

Page xiii
Delgado after about 2015 was netting about $4,400 per week in commissions from
the Potato Plant and from the Foxley Feedyards from undocumented unlawful
aliens in the US working for about 88 times $500 or $44,000 per week, roughly
$44,000 per week below minimum wage in the US and creating a vastly different
market than that faced by entrepreneurs trying to comply with all federal laws and
paying the full minimum wage with all withholdings sent to the US government.
QUESTION 37- Were Widtfeldt real estate values wrongly inflated by the Ben
Nelson policies after Democrat Ben Nelson won the Nebraska governor office, and
interest rates decreased?
QUESTION 38- What effect does the COVID19 virus have on the United States
and the efforts of China to sabotage the US economy?
QUESTION 39- What benefit would a requirement of Lyme disease treatment with
Stevia and antibiotic about once per year or as needed, have on the prevalence of
cancer in the US?
QUESTION 40: What benefit would a requirement of Lyme disease treatment with
Stevia and antibiotic about once per year or as needed have on the prison and
incarceration rates in the United States?
QUESTION 41- What benefit does Lyme treatment have in improving world
government and preventing destructive behavior among those elected to office?
QUESTION 42- What benefit would using the United Nations to encourage or
require world leader treatment for Lyme, and their military, police and government
leaders or elected persons, to have annual treatments for Lyme?
QUESTION 43"
What effect do Democratic Party efforts to impose massive
wrongful tax liens on Republican party members have on national and state level
elections?
QUESTION 44" Whether the law called Obamacare is unconstitutional for the
reason that the IRS administers or is in charge of the Obamacare program, and for
example in James Widtfeldt discovery in Nebraska about 2009-10 that Widtfeldt
had probable prostate cancer, the IRS immediately seemed to be notified that
James Widtfeldt might be planning urgent medical care, and the IRS therefore
began litigation delaying Widtfeldt medical care and giving Widtfeldt a choice to
capitulate to the IRS demands or to risk an unpleasant death through prostate
cancer as an IRS effort to collect unjustified taxes. To challenge the Arthur Welp
determinations of 2002-2011 through Agent Polsky that this case followed the 1998
Questions Presented for Discussion in this Petition for Certiorari Page xiii

Page xiv
IRS Restructuring and Reform Act, designed to have the US Tax Court Chief Judge
appoint an Administrative Law Judge, in this case Administrative Law Judge
Arthur Welp was appointed in 2002 following a Widtfeldt appeal of an out of control
audit [which threatened to embroil and possibly destroy, or so the US Tax Court
Judge may have thought or been motivated to save, an IRS Agent in Omaha named
Michelle Seger Moser formerly of Atkinson in a colorful case where a lawyer in
private practice named Janet Krotter Chvala, now disbarred, was also the Atkinson
City Attorney and was using the Atkinson City Police Chief Larby to hire a
carpenter to break into James Widtfeldt office and sabotaging Widtfeldt law
practice], where Welp was hired and spent the years 2002 to about 2012 to
carefully analyze James Widtfeldt transactions with Widtfeldt parents to prevent
the IRS from creating a situation where the US Tax Court Judge Diane Kroupa in
any further appeal of AU Welp, might be faced with having to decide the case
without any research Judge Kroupa would have time to do on a one day trial faced
with about 25 cases other cases competing for her attention, as later developed on
April 26, 2011 in the Omaha, Nebraska federal building, in a hearing on April 26,
2011 in the US Special Proceedings Courtroom in the federal Building in Omaha,
where IRS Agent Polsky had 25 cases that Agent Polsky was trying to change away
from the AU Welp or similar tax payer friendly studied decisions, and one day
scheduled, approximately for Tax Court Judge Diane Kroupa to hear and decide in
one day and but for Welp’s previous work, Judge Kroupa would have had little
knowledge of the case and would have probably decided on a large award to the IRS
to protect herself from IRS retribution knowing that taxpayer retribution would be
ineffective or short term. James Widtfeldt and his parents had agreed that
following a serious hear^attack of Albert Widtfeldt in February, 1973, probably
caused by one or more of 300 worldwide subspecies of Lyme disease suspected in
1973 but first discovered in 1981 by Willi Burgdorfer in his US government germ
research laboratory in Hamilton, Montana. (A Lyme spirochete is a microscopic
worm so tiny that it was not discovered earlier for example by Robert Koch in or
about 1850 with a microscope with mostly sunlight, or by Louis Pasteur about 1890
with the first electrical lights, because light goes right through the tiny nearly
transparent worm and only the new dark field or back light and sometimes infra
red microscopes being developed by 1981 and Willi Burgdorfer experience in a Swiss
Tropical Institute Ph.D., coupled with Willi Burgdorfer doctoral thesis work with
Professor Rudolf Geigy of the Swiss Tropical Institute in Switzerland see p 26-27 of
Bitten bv Newby, infra, enabled Burgdorfer to make the 1981 Borrelia Burgdorferi
aka Bb discovery.)

Questions Presented for Discussion in this Petition for Certiorari Page xiv

Page xv
QUESTION 45: Does the IRS unconstitutionally use Obamacare to detect whether
James Widtfeldt is traveling to a hospital (such as UCLA in May 12-28, 2019) and
then unlawfully uses the IRS job as administrator of the so-called Obamacare to set
a hearing for the same time to disrupt the Widtfeldt medical care?
QUESTION 46* Does the IRS unconstitutionally use its position as Administrator
of Obamacare to determine whether this taxpayer is obtaining medical or hospital
care and then use the IRS and US Treasury position as administrator of Obamacare
to try to sabotage Widtfeldt defense of IRS tax claims by filing litigation and
demanding progress of the litigation while Widtfeldt would be better off getting
medical treatment with later litigation or depositions during the time Widtfeldt is
committed to medical care and cannot interrupt the medical care without rendering
the medical are ineffective?
QUESTION 47: Is the Nebraska and US Attorney General effort to stop price fixing
on meat supplies in the US, exhibited and proved because the price of farm or ranch
meat animals is very low due in part to coronavirus COVID 19 infections in packing
plants making workers sick, but on the other hand the packing plants should not be
using the butcher shop closures or temporarily closures to sabotage cattle, hogs,
sheep and other agricultural products to refuse to pay for any livestock?
QUESTION 48: Is the Nebraska Supreme Court wrongly refusing to test and treat
all Criminal defendants for Lyme, a psychoactive disease, grounds for removing the
said judges and requiring re-trial or free of any criminal defendants convicted
without a pre trial test for Lyme and treatment before trial?
QUESTION 49: Did James Widtfeldt fully buy out his parents by 1994? The estate
tax determination case in the estate of Albert Widtfeldt, United States vs James
Widtfeldt began in an IRS audit out of the Omaha Office of the IRS, following
James Widtfeldt filing of a Form 706 Estate Tax Return by mail about 9 months
(November, 1996) after Albert Widtfeldt death in February, 1996. Albert and
Gusteva Widtfeldt believed that James Widtfeldt had fully bought out Albert and
Gusteva Widtfeldt by 1994, about 21 years after Albert Widtfeldt suffered a near
fatal heart attack in 1973 while driving a tractor to Atkinson for repairs, and after
four days of extreme discomfort, received a “put your affairs in order” letter from
George John Carstens, MD in February, 1973. Much of the purchase by James
Widtfeldt occurred following James Widtfeldt graduation from law school at the
Univerity of Nebraska in 1978 and a Ph.D. from Rensselaer Polytechnic Institute
(RPI) in Troy New York in September, 1977. James Widtfeldt met many students
at RPI who were suffering from the as yet in 1973 unidentified Lyme disease, later
Questions Presented for Discussion in this Petition for Certiorari Page xv

Page xvi
Lyme was discovered to have about 300 variants or sub species all in the form of
microscopic worms and a life cycle possible including all of of field mice, deer, ticks,
and many other insects, which had many symptoms including heart attack. The
method of payment included James Widtfeldt sacrificing alternative work with the
Mathematics Ph.D. through the Office of Naval Research, generally valued at $1
million per year with increases for inflation and incentives generally involving
detection and use of sound and radar waves in locating other nations nuclear
submarines and other weapons, and hiding similar weapons of the US from other
nations. James Widtfeldt Ph.D. involved familiarity with Lyme disease through pre
medical students at RPI generally career bound to Albany Medical College and
other nearby medical colleges.
QUESTION 50- Did Lyme disease decrease real estate values even before the
disease was fully understood?
QUESTION 51- The US 8th Circuit Court of Appeals on October 8, 2020, without
reference to the Arthur Welp decision of May 5, 2002, reviewed the trial de novo of
the US District Court in 8;18 cv 0453 and erroneously approved the order, the error
being that no reference was made to the Arthur Welp decision in violation of the
Robinette v Commissioner ofthe IRS. 439 F 3d 455 (8th Cir 2006) decision which
limits the US 8th Circuit to review of the Administrative Law Decision of Arthur
Welp, and does not permit the 8;18 CV 0453 de novo decision. Additionally the US
Tax Court already reviewed in 15907-10 in the US Tax Court where Agent Polsky
was trying to enter a de novo decision ignoring Welp, but failed to do so and thereby
was the first and only allowed appeal of Welp, hence Welp was affirmed and no tax
was or is due from Widtfgldt, either estate or gift. Was the US 8th Court of appeals
decision of 10-08-20 in 19-3372 precluded by the US Tax Court decision in 15907*20,
which was in turn precluded by the Arthur Welp decision of 2002-2012 which
determined that no estate or gift tax was or is due, as James Widtfeldt had paid his
parents in full in 1994 as approved in 2004, by ALJ Welp.
QUESTION 52- Are Judges Robert F Rossiter, Jr, US District Judge of Nebraska,
and the three Circuit Judges, Colloton, Benton, and Kobes of the US 8th Circuit
Court of Appeals, allowed to change, without referencing the work of Administrative
Law Judge Arthur C Welp, as appointed by the US Tax Court Chief Judge in 2002
to analyze James Widtfeldt purchase from his parents Albert and Gusteva
Widtfeldt (Welp determined that James Widtfeldt had bought out his parents in full
by 2004 before the death of Gusteva, tracking James Widtfeldt and Albert and
Gusteva Widtfeldt computations that James had bought out Albert and Gusteva
between 1973 when Albert suffered a near fatal heart attack and Gusteva was
Questions Presented for Discussion in this Petition for Certiorari Page xvi

Page xvii
suffering severe pneumonia attacks) because of the dangerous and fraudulent
behavior of Janet Krotter Chvala, since disbarred, and her friend, Michelle Seger
Moser, an IRS agent in Omaha, Nebraska, a lifetime friend of Krotter Chvala since
grade school, where Krotter-Chvala and Seger - Moser were engaging in wrongful
behavior to try to require James Widtfeldt to be engaged in a lawsuit by his
parents with Krotter* Chvala claiming she had to be representing Gusteva
Widtfeldt, and Ms KC demanding that James Widtfeldt be represented by lawyer
Betterman of Omaha in a fictional case to enable Ms KC to assess and elaim vast
lawyer fees of millions of dollars much like the later case in which Krotter Chvala
was disbarred by the Nebraska Supreme Court in 2019 by the Nebraska council for
discipline, where Ms. KC was trying to charge the Kaup brothers of Stuart,
Nebraska over $3 million for paying off a $600,000 loan between 2005 and 2013,
where the actual payoff was roughly $600,000 plus interest already paid.

t
y* '

<■*.

1"

Questions Presented for Discussion in this Petition for Certiorari Page xvii

xvm

PARTIES TO THE PROCEEDING BELOW
In addition to the parties named in the caption, no others are involved at this
time.

\

•I-'

j

Page xix
TABLE OF CONTENTS
ISSUES PRESENTED

i to xvii

PARTES TO THE PROCEEDINGS BELOW

xvin

TABLE OF CONTENTS

xix

TABLE OF AUTHORITIES

xx

PETITION FOR A WRIT OF CERTIORARI

1

I.OPIN’S BELOW - US TAX COURT, WELP‘

1

II. JURISDICTION -ROSSITER NONE

2

III. ALJ ARTHUR WELP, US TAX COURT

3

IV.ALJ WELP DETERMINES NO TAX

3

V. REASONS FOR GRANTING WRIT

5

QUESTIONS 1-2-3-4 ANSWERED

6

QUESTION 5-11 ANSWERED

7

QUESTIONS 12-17 ANSWERED

8

QUESTIONS 18-21

9

QUESTIONS 22-25

10

QUESTIONS 26-30

11

QUESTIONS 31-34

12

QUESTIONS 35-42

13

QUESTION 43-49

14

QUESTION 50-52

15

CONCLUSION General and 1,2,3,4

15,16

SIGNATURE, CERTIFICATE OF SERVICE, PAGE, WORDS

17

Page xx
TABLE OF AUTHORITIES
STATUTES
Paragraph 1101 Civil Damages for Unauthorized Collection Actions, TBOR 2
Taxpayer bill of rights PL 104-168 amended damages for up to $1 million of civil
damages if an IRS officer or employee recklessly or intentionally disregards the
provisions of the IRC or of the Treasury regulations, as provided in Code Section
7432 and 7433, through a taxpayer assistance order. A TAO or taxpayer assistance
order may order the IRS to release property levied upon, cease any action or take
action as permitted by law, or refrain from taking action with respect to the
taxpayer. See page 269 of 1998 Tax Legislation, IRS Restructuring and Reform,
Law Explanation and Analysis.
\

The IRS has filed an unlawful tax lien in 2013 on James Widtfeldt violating the
Arthur C. Welp determinations of 2002 through 2012, without any notice to
Widtfeldt and with no possible notice, since the analysis of no possible tax was
already completed and carried to the US Supreme Court and approved in Welp
actions, and thence in 15907-10 in the US Tax Court, thence in the US Court of
Appeals in case 11-2285 and thence affirmed in the US Supreme Court in 2012 on
or about May 12, 2012..
CASES
&

15907-10 in the US Tax Court, Judge Kroupa with Agent Polsky for the IRS,
refused Welp record to be filed, and in fact Polsky filed a motion to dismiss a
reference to Welp by Widtfeldt which destroyed Polsky’s case.
US 8th Court of Appeals 11-2285, US Supreme Court (affirmed without number)

BOOKS
1998 Tax Legislation. IRS Restructuring and Reform. Law, Explanation and
Analysis by CCH ISBN 0-8080-0281-3, July 1998

Page xxi
ADMINISTRATIVE LAW AGENCYACCTIONINLEGAL CONTEXT. Robert L
Glicksman and Richard E Levy, University Casebook Series, ISBN: 978-1-64020627-4, January 2020
BITTEN The Secret History ofLyme Disease and Biolopiaal Weapons bv Kris
Newby, ISBN 978-0*06-289627-8, Harper Wave Publishing 2019
Cura Unknown - Inside the Lvme Epidemichv Pamela Weintraub ISBN 13-978-0312-37812-7, 2008 St Martin’s Press
HOWCANI GETBETTER? Am Action Plan for Treating
T,yme & Chmnir.
Disease, Richard I Horowitz, ISBN 978-1-250-97054-8, St Martin’s Griffin,
February 2017
Lab 257 Caution the Disturbing Storv ofthe government’s Secret Germ
Laboratory,; by Michael Christopher Carroll ISBN978-0-06-078184-2, Harper
Collins Books, 2004-5, Harper Collins

OTHER EVIDENCE:
Arthur Welp, Administrative Law Judge, Determined after his 2002 appointment
by the US Tax Court Chief Judge, and after a thorough investigation with some
10,000 pages of material sitting on his desk at the IRS office in the federal building
in Omaha on March 8, 2002 during an appointment with James Widtfeldt, that
James Widtfeldt had fully paid off his parents and that by 2004 no gift, estate or
inheritance tax was owed. All successive IRS agents in the same matter are
required to cite and use Welp’s paperwork, in order to make any appeal or changes,
and neither IRS Agent Polsky in the US Tax Court 15907-10 case before Judge
Kroupa, nor IRS Agents Shoemaker and Kelly before US District Court Judge
Rossiter, Jr in the US District Court 8:18 cv 0453 allowed or introduced AT JT Arthur
Welp’s determinations, thereby returning the determinations in the US Tax Court
and the US District Court of Nebraska, to Welp’s determination of no estate or gift
tax due from Widtfeldt from his buyout of parents Albert and Gusteva Widtfeldt.
See pages 69*73 of Administrative Law by Glicksman and Levy, supra, in
particular page 71. Because of their failing to reference Welp, both the Rossiter
opinion and the Kroupa opinion in the us Tax Court are fatally flawed, and of
course both Polsky and the Shoemaker-Kelly proponents of more taxes were afraid
to reference Welp as Welp’s determination of no Widtfeldt estate or gift tax due

Page xxii
would have been affirmed, and there was no argument that any tax could be
assessed once Welp’s opinion was considered.
In the April 26, 2011US Tax Court hearing with Judge Kroupa presiding in the
Omaha Federal Building, Judge Kroupa refused to honor Widtfeldt subpoena
properly served on Welp, and refused to hear Widtfeldt or Welp who was present in
the building. Judge Kroupa had about 25 cases waiting in the Omaha Federal
Courtroom and had allowed time to hear only about one case, as stated on April 26,
2011. Probably because IRS Agent Polsky had objected to Welp’s record and refused
to have Welp testify, the matter already reverted to Welp’s determination that
Widtfeldt owed no estate or gift tax as of 2004 and thereafter, pursuant to Robinette
yJPJR> 439 F 3d 455 (8th Cir 2006), authored by Colloton on one of Judge Colloton’s
better , days, and Judge Kroupa (a Republican Judge amidst a sea of Democrat IRS
Agents) was allowing the default to Welp’s determination with as little publicity to
herself as possible, possibly intentionally letting^RS Agent Polsky down easy.
The 2011 US Tax Court 15907 10 before Judge Diane Kroupa decision that
Widtfeldt owed per Arthur Welp determination, no estate or gift tax, precludes and
prevents all of the activity in US District Court in 8:18 CV 0453 by Judge Rossiter,
Jr. and Judges Colloton, Benton and Kobes on appeal in the 19-3372 in the US
Court of Appeals.

&

PETITION FOR WRIT OF CERTIORARI
Petitioner James Widtfeldt respectfully petitions for a Writ of Certiorari to
review two WRONGFUL Orders of the United States District Court of Nebraska by
Judge Robert Rossiter Jr, dated on or about September 17, 2019, appearing at
Exhibit A of the Appendix, and appearing to violate the determinations of the
United States Tax Court which are the ONE AND ONLY appeal allowed, done in
the US Tax Court with an order 042611 affirming Welp decision of no taxes (the
IRS agent Polsky never mentioned the Welp Order in is arguments which prevented
Polsky from successfully or changing Welp determinations, and the court from
changing the Welp evaluations) see p 71 of the textbook Administrative Law Agency
Action in Legal Contexthv Glicksman and Levy, 2020, University Casebook Series
LEG Inc dba West Academic, stating in paragraph three of said page, ‘‘It is a basic
principle ofadministrative law that review ofadministrative decisions is ‘ordinarily
limited to consideration of the decision of the agency... and of the evidence on
which it is based."’and. which prevent and preclude the Rossiter Orders herein, as
well as those of Judge Kroupa, which never quoted or cited the Welp decisions.
I.

LOWER COURT: JUDGE ROSSITER SCHEDULED, NOTICED, AND
THEN ON SEPTEMBER 17,2020 DECIDED WITHOUT EVIDENCE,
AND HENCE CANCELLED ALL EVIDENCE, NO PRE TRIAL
DECEMBER 2019 HEARING OR TRIAL SET FOR JANUARY, 2020 BUT
SHORT CIRCUITED BY SEPTEMBER 17 DECISIONS, AND WITH NO
APPEAL STANDING (THE US TAX COURT DID THE APPEAL
EXCLUDING ROSSITER AND THE US DISTRICT COURT) IS
ATTEMPTING WRONGLY TO INDUCE VARIOUS IRS AGENTS TO
EXECUTE ON WIDTFELDT PROPERTY IN DIRECT VIOLATION OF
THE 1998 IRS REFORM ACT, AND IN DIRECT VIOLATION OF THE
REQUIREMENTS OF A HEARING OR A COLLECTION DUE PROCESS
HEARING, BEFORE COLLECTION. ROSSITER ORDERS SIMPLY
LACK ANY STANDING OR MEANING AS ONLY ONE APPEAL IS
ALLOWED AND THAT OCCURRED IN THE US TAX COURT 15907-10,
EXCLUDING THE US DISTRICT COURT AND JUDGE ROSSITER
AND FINDING IN FAVOR OF WIDTFELDT -ROSSITER HAS NO
JURISDICTION AND ROSSITER’S 8:18 CV0453 ORDERS ARE ALL
PRECLUDED BY US TAX COURT 15907-10.

Page 1

Judge Rossiter, Jr of the US District Court of Nebraska in case 8:18CV0453
is attempting to ignore US Tax Court decisions in 15907-10 approving Welp
Decisions that no estate or gift tax is owed, and additionally to violate the collection
due process hearing and other requirements of the Taxpayer Rights Examination
Activities, in particular the Section 1101 Civil Damages for Unauthorized Collection
Activities, to wrongfully collect an invalid tax liability which Judge Rossiter, Jr, in
contradiction to Judge Kroupa in the US Tax Court which US Tax Court precluded
all Rossiter, Jr. Orders, but Rossiter has wrongly attempted to appeal the Welp
determinations by hiding the Welp record, and the IRS appeal to the US Tax Court
m case 15907-10 which during a hearing or trial April 26, 2011 Judge Kroupa
affirmed Welp. Judge Kroupa had arrived in Omaha Federal Building with about
25 cases and time to decide only one, a standard time problem which is one reason
of several for the Chief Judge of the US Tax Court in or about January 2002 to
make appointment of ALJ Welp to go through all the records and determine a
legitimate conclusion which Welp did and determined no tax due.
\

II.

JUDGE ROSSITER DID NOT DO THE APPEAL WHICH WENT TO
THE US TAX COURT 15907-10 UNDER JUDGE KROUPA - JUDGE
ROSSITER, JR IS TRYING TO CREATE THE APPEARANCE OF
CREATING A NEW TAX COLLECTION IGNORING ALJ WELP AND
THE RULES ON APPEALING THE WELP ADMINISTRATIVE LAW
JUDGE DETERMINATIONS IN 2002 2011 ALREADY APPEALED AND
DECIDED AGAINST THE IRS IN CASE 15907-10 IN THE US TAX
COURT, AND NOW JUDGE ROSSITER JR IS NOT USING THE
MANDATORY WELP RECORD AS THE SOLE VEHICLE FOR APPEAL
OR USING THE WELP RECORD AT ALL ONCE AGAIN AFFIRMING
ALJ WELP DECISIONS.

Judge Rossiter, JR is not in the appeal chain which went from the local IRS
office in Omaha, appeal where a nasty scrap between lawyer Janet Krotter Chvala,
now disbarred by the Nebraska Supreme Court, involving activity likely to embroil
IRS agent Seger-Moser, a childhood friend of Krotter Chvala, through ALJ Welp,
thence through the US Tax Court Case 15907-10 through Judge Kroupa in 2010-1112 and thence the US 8th Court of Appeals Case 11-2285, finalized to the US
Supreme Court in May 12, 2012 and other Widtfeldt Petitions for Certiorari
including that herein, by Rossiter additionally refusing to use the mandatory and
exclusive ALJ Welp record in the ALJ Welp decision preventing any pre-trial which
Judge Rossiter, Jr. set for December, 2019, and by preventing any trial which Judge
Page 2

Rossiter, Jr set for January, 2020, Judge Rossiter like Judge Kroups is precluded
from assessing any tax and must instead follow only that decision of no tax by
Arthur Welp, Administrative Law Judge, determination by appointment of Welp by
the Chief Judge of the United States Tax Court about January 5, 2002 continuing to
at least 2011.
III.

ALJ ARTHUR WELP APPOINTED BY THE CHIEF JUDGE OF THE US
TAX COURT ABOUT JANUARY 5, 2002 DID ALL THE NECESSARY
INVESTIGATION TO DETERMINE THAT JAMES WIDTFELDT HAD
FULLY PAID OFF HIS PARENTS BEFORE THEIR RESPECTIVE
DEATH, FROM THE 1973 HEALTH LYME LIKE EMERGENCIES
CAUSING A NEAR FATAL 1973 HEART ATTACK FOR ALBERT
WIDTFELDT AND REPEATED PNEUMONIA FOR GUSTEVA
WIDTFELDT IN 1973 AND UNTIL THE 1983 INVENTION OF A
PNEUMONIA VACCINATION, AND NO TAX WAS DUE FROM THE
WELP DETERMINATION WHICH AGENT POLSKY NEGLECTED TO"
REPORT AND HENCE POLSKY FAILED TO APPEAL. JUDGE
ROSSITER MUST USE THAT WELP RECORD OF WELP FROM 20022011 REQUIRED BY ADMINISTRATIVE LAW JUDGE APPEALS, AND
JUDGE ROSSITER WITH AGENTS SHOEMAKER AND OTHERS IS
ALSO LIKE JUDGE KROUPA AND AGENT POLSKY, REFUSING TO
USE THE WELP RECORD, WRONGLY TRYING TO GET IRS AGENTS
TO ADVERTISE WIDTFELDT PROPERTY FOR SALE WHILE
REFUSING TO RETURN OVER $.642 MILLION OF WIDTFELDT
ASSETS WHICH ALJ WELP AND THE US TAX COURT DIRECTED
THE US TREASURY TO RETURN TO WIDTFELDT IN APRIL 26, 2011,
STILL DRAWING INTEREST AT 15 PERCENT AND INFLATION AT 85
PERCENT PER ANNUM.

ALJ Welp fully audited both Albert and Gusteva Widtfeldt estates and
determined that James Widtfeldt had fully bought out and paid for all assets of
Albert and Gusteva Widtfeldt by November, 2004 (A separate gift to Norma Skjold
in 1973 was never an issue.). Gusteva Widtfeldt survived until February 2006 and
hence, with Albert, had consumed more than her estate and Albert Widtfeldt estate,
and hence no estate or gift tax was due, according to the final determinations of
Arthur Welp, AU, ultimately adopted by Judge Diane Kroupa in the US Tax Court
15907-10 in part becauses the IRS Agents Shoemaker, Kelly, and others refused to
supply the controlling ALJ Welp record needed for appeal dining the rim up to the
Page 3

appeal. The IRS or Commissioner of the IRS has to use the Welp record in its
appeal to change anything on appeal, and the IRS failed to do so and hence the
Welp determination of no tax remains in full force and effect.
IV.

EVEN THOUGH ARTHUR WELP, IRS AGENT AND
ADMINISTRATIVE LAW JUDGE, SHADED ALL HIS COMPUTATIONS
TO BENEFIT THE IRS AND US TREASURY, WELP FOUND THAT
JAMES WIDTFELDT HAD FULLY PAID HIS PARENTS FOR ALL
THEIR PROPERTY (834 ACRES WAS SEPARATELY GIFTED TO
NORMA WIDTFELDT SKJOLD ABOUT 1973 AND HAS NOT BEEN AN
ISSUE BEFORE THE IRS) AND NO TRANSACTION TAX COULD BE
DUE IN THE FORM OF EITHER ESTATE OR GIFT FOR ANY
TRANSACTION BETWEEN THE WIDTFELDTS. JUDGE ROSSITER,
JR WAS NEVER PART OF THE ALJ WELP, US TAX COURT -KROUPA
- US 8™ COURT OF APPEALS IN 11-2285 FIRST AND ONLY VALID
APPEAL, BUT JUDGE ROSSITER ABUSIVE SECOND APPEAL HAS
UNDER IRC 7433 ENABLED WIDTFELDT UNDER IRC 7433 $1
MILLION DAMAGES FOR EACH DAY FOLLOWING THE WRONGFUL
SECOND APPEAL TO AUTHORIZE IRS AGENTS TO SELL
WIDTFELDT PROPERTY ANYWAY, IN VIOLATION OF AT LEAST
THREE REQUIREMENTS A) JUDGE ROSSITER DID NOT USE
WELP’S RECORD AS REQUIRED
B) JUDGE ROSSITER IS OUT OF THE FIRST AND ONLY VALID
CHAIN OF APPEAL WHICH WAS ALJ WELP, US TAX COURT, US
COURT OF APPEALS, US SUPREME COURT
C) ONLY ONB APPEAL IS ALLOWED FROM ALJ WELP ORDERS
AND IN BOTH ATTEMPTED APPEALS THE IRS AGENTS COULD
NOT BRING THEMSELVES TO USE WELP’S RECORDS, WRECKING
THE IRS APPEALS AND AFFIRMING THE WELP DETERMINATONS
OF NO TAX DUE.

The Estate tax returns form 706 for both Albert (1996) and Gusteva Widtfeldt
(2006) were audited by ALJ Welp, and he found no estate tax or gift tax due. For
example, Gusteva Widtfeldt estate was determined by Welp to be zero by
November, 2004, so that Gusteva would have had to have at least $1.5 million more
to pay her own bills to her death, and at least $1 million more assets to exceed the
unified credit, to have any estate tax at all. Hence Gusteva Widtfeldt would have
had to own at least $4.5 million more assets than she had, to have any estate tax
Page 4

like that postulated, fantasized about, or hoped for by by Judge Rossiter, Jr. or any
liabihty at all. Likewise for Albert Widtfeldt.
V.

REASONS TO GRANT WRIT OF CERTIORARI: ROSSITER IS
CLEARLY VIOLATING HIS OATH OF OFFICE AND ROSSITER HAS
TO ADOPT THE WELP DETERMINATIONS

These appeals are of Arthur Welp, and Welp computations are done by Welp acting
as an IRS agent appointed to be an Administrative Law Judge for Gusteva, Albert
and James Widtfeldt transactions, by the Chief Judge of the US Tax Court
expressly to preclude any later incorrect actions of Judge Kroupa or Judge Rossiter
under the IRS Reform Act of 1998, and Welp determinations are at least $10 million
more than any regular accountant would have shown, meaning that Gusteva and
Albert Widtfeldt were short about $15 million from having any estate tax or gift tax
to pay. Arthur Welp was appointed by the US Tax Court Chief Judge to do ALJ
Welp’s audit work, meaning that the said US Tax Court Chief Judge in 2002 had
every confidence that ALJ Welp was far above average in auditing and work habits,
and further that ALJ Welp was not going to do anything that would reflect badly on
the US Tax Court Chief Judge. The IRS agents in both the US Tax Court and in
the US District Court did not file the mandatory ALJ Welp Record in the appeals
courts, preventing in both cases any appeal determination except to uphold AT,!
Welp’s determinations. In a conversation with Agent Shoemaker on March 5, 2020
during the abortive COVID 19 plagued effort to wrongfully in violation of the US
Supreme Court determinatons, sell Widtfeldt property on March 5, 2020, Agent
Shoemaker expressed the belief (over the telephone) that no Administrative Law
Judge was allowed to do any work through the IRS, which would undermine at least
one fifth of the Glicksman and Levy, SUPRA, text being used at U Kansas and
Washington U in the District of Columbia and probably suggests a basic training
deficiency in the IRS for their top agents. This failure by all IRS agents (except
Welp) to have the ALJ Welp record filed before both Judge Kroupa (only one appeal
allowed) in the US Tax Court in case 15907_10 and if the Tax Court appeal had not
been done, repeating the error to fail to have the ALJ Welp record filed before Judge
Rossiter, Jr. of the US District Court of Nebraska in 8:18 cv0453, both of which
errors prevented any appeal and left the ALJ Welp determinations of no estate and
no gift tax due, as the final standing order all the way to the US Supreme Court.
Summarizing the above and giving answers to the Questions Presented, we have:

Page 5

QUESTION l: ANSWER yes, the failure to include testing and treatment for the
Lyme spirochete also known as Bb, has to be done on all defendants before all
criminal and many civil cases under 42 USC Section 1983 and subsections 2766,
2767, 1603 and 1604, failure of which testing and treatment will allow all criminal
defendants after 1981 to be exonerated from all guilty convictions and go free.
Violations of 42 USC 1983 the federal civil rights act could likewise result in
reversals of many civil cases. It goes without saying that all judges and lawyers
must also be tested and treated for all 300 subspecies of Lyme probably annually as
part of the requirements to practice or judge law, and certainly all citizens should in
the US be tested and treated for Lyme as a way to prevent the vast majority of
cancer in the US most of which probably originates from untreated Lyme infections
of decades duration and often passed from parent to child at birth.
QUESTION 2- ANSWER- Yes, it does appear that the election victory of Donald
Trump in 2016 has now allowed and required testing and treatment of and for all
300 subspecies of Lyme disease to be carried out tb the best of the medical
profession’s ability, although the strict prevention of Lyme testing and treating in
about 80% of the United States-until 2016 under the strong suppression of Obama
and Clinton, and the failure of President Bush who was himself infected, to respond
as hoped by the ILADS organization, could keep medical professionals from openly
testing and treating for some time yet, with no decisive nationwide rules clearly
stated by Congress or the President. The US Supreme Court should now order all
criminal defendants and all judges and lawyers to be tested annually for all 300
versions of Lyme Disease, and require that the effects of brain infections with Bb or
Lyme be clearly understood as causing behavior otherwise thought to be criminal.
4QUESTION 3- ANSWER- Hopefully this court will order testing and treatment of
Lyme in all criminal defendants assuming -that all prosecutors and judges and
Police, sheriffs and deputies are routinely tested and treated, and encourage testing
and treatment in all civil cases, and require all judges and lawyers and military
members, and elected officials in the United States to be tested and treated at least
annually for all 300 variants of Lyme disease.
QUESTION 4- ANSWER: Hopefully this court will require the Stevia ajuvant with
antibiotics in treatment for Lyme, with a strong research program to discover
additional ajuvants to assist in treatment of the 300 worldwide variants of Lyme
some of which may be now somewhat resistant to Stevia as an ajuvant.
Page 6

QUESTION 5: ANSWER: Yes the old trials back to at least 1981 discovery of the
Bb or Lyme spirochete will have to be redone for all criminal defendants still living
and new trials given, and defendants deceased should be given automatic pardons.
QUESTION 6: ANSWER: Yes, stevia as an ajuvant with antibiotics should be given
plus any additional ajuvant discoveries made, for every person in the US at least
once annually to prevent Lyme infections.
QUESTION 7: ANSWER: Yes, stevia and any additional adjuvants should be given
to eliminate or limit “uncontrollable fits of rage” associated with Lyme disease or

Bb.
QUESTION 8: ANSWER: Yes, the IRS should be given more training in the 1998
IRS Restructuring and Reform Act so that all contests where supposed transfers
that might be gifts or buyouts for full consideration, are strongly evaluated with
ALJ Judges with time and resources to do a good job, so that no taxpayers are faced
with either a US Tax Court Judge who has 25 cases waiting and time for only one
as with Judge Kroupa, or as with Judge Rossiter, Jr. who cancels all pre trials and
trials and orders massive taxes due when not in the chain of appeals, without any
ALJ Welp required record, evidence, or trial or pre-trial as in the case of US District
Court Judge Rossiter, Jr.
QUESTION 9: ANSWER: No, the IRS cannot make a second appeal through Judge
Kroupa and followed by Judge Rossiter, for reasons already given.
QUESTION 10: ANSWER: Yes, the IRS has twice failed to provide the ALJ Welp
record to the US Tax Court Judge Kroupa, and to the US District Court Judge
Rossiter, Jr., and the March 5, 2020 conversation with Agent Shoemaker suggests
that many agents have been poorly trained about the 1998 IRS Restructuring and
Reform Act, and have an unworkable, defective lack of training and knowledge
about Administrative Law Judges appointed by the US Tax Court Chief Judge and
many would benefit from an energetic teaching of Administrative Law by Professor
Glicksman or Professor Levy, from their text A dm inistrRtivp! T^w supra.
QUESTION 11: ANSWER: No. Judge Rossiter, Jr. cannot lawfully over ride and
ignore the ALJ Welp record which is supposed to be the only evidence on appeal of
an Administrative Law Judge, and the IRS agents must be trained to produce that
ALJ record in every case to avoid losing all cases.

Page 7

QUESTION 12- ANSWER* District Court Judge Rossiter, JR. in US District Court
8:18 cv 0453 possibly had no knowledge of the earlier US Tax Court case 15907-10,
by Judge Kroupa, but if Judge Rossiter did have such knowledge, then Judge
Rossiter, JR should have been able to locate a copy of the AU Welp record and
instruct the IRS agents they had to use the ALJ Welp record or have their appeal
nullified and the Welp decisions upheld.
QUESTION 13; ANSWER* Yes, Judge Rossiter, JR is wrong in attempting to
prosecute more than the one appeal through Judge Kroupa of the US Tax Court in
case 15907-10, and US 8th Court of Appeals 11-2285, and run the risk of the
taxpayer being awarded the $1 million damages under IRC 7433, Civil Damages for
Certain Unauthorized Collection Actions.
QUESTION 14; ANSWER: The ALJ Welp auditor should have been able to
analyze the Widtfeldt records and determine that the correct buy out completion
date was in 1994 rather than in November, 2004Hmore than ten years later.
QUESTION 15: ANSWER: ALJ Welp was not correct in the 2004 buy out
completion date which should have been in 1994, as the Widtfeldts calculated.
Gusteva and Albert already gave themselves the benefit of the doubt even in the
1994 completion date, and another ten years of IRS errors is hardly tolerable in
these circumstances.
QUESTION 16: ANSWER: The misbehavior of Agents Douglas Polsky, James
Daugherty, Shoemaker, Kelly, Avetta, Wollitzer, Wroble, William Wilkins, Bruce
Ellisen, GS Rothenberg, and Anthony Sheehan and others justify payments of $1
million damages per ageht per year from 1994 to 2000 to James Widtfeldt, or in
excess of $1.6 billion damages
QUESTION 17: ANSWER: The wrongful actions by agents of the City of Atkinson,
an agent of the Nebraska government, and hence controllable by the Nebraska
Supreme Court, and never repaid estimated tax payments of $193,363.36 used to
shortchange James Widtfeldt and used to sabotage Widtfeldt buy out of bis parents
Albert and Gusteva Widtfeldt and used to cause fictitious claims against Widtfeldt
for suspension of his law license by the Nebraska Supreme Court, justify damages
of $1 million per year per judge of the Nebraska Supreme Court from 2005 to 2020
or whenever James Widtfeldt law license is restored.

Page 8

QUESTION 18- ANSWER- Rickettsia Helvetica is a coinfection with Lyme which
must also be tested for and treated prior to any criminal defendant being put on
trial, and ideally before the defendant commits any alleged crime meaning that the
public must be tested and treated for Lyme and the Swiss Agent Rickettsia
Helvetica, probably twice per year until the infection is controlled and to prevent
misbehavior causing civil or criminal charges long before any action or behavior is
alleged to be criminal.
QUESTION 19; ANSWER: The James Daugherty “Notice of Federal Tax Lien” is a
wrongful violation of the requirement that the Arthur Welp, ALJ audit of Albert,
Gusteva and Albert Widtfeldt 2002-2012 must be the record of which all appeals are
based and prosecuted, nullifying all other appeals, and justifying $1 million fine per
day in favor of James Widtfeldt from the date of the lien in 2013.
QUESTION 20: ANSWER: The 1998 IRS Restructuring and Reform Act required
many new taxpayer protections including the Administrative Law Judge Welp audit
which is required to be the record on which all appeals are prosecuted. Arthur
Welp, ALJ, determined that James Widtfeldt had fully bought out his parents
Albert and Gusteva Widtfeldt by November, 2004, meaning that the claims of estate
or gift tax being made by the IRS are eliminated, and the February 24, 2020 US 8th
Court of Appeals Order denying access to any AU Welp record - the very record on
which Judge Rossiter, Jr. and the US 8th Court of Appeals are supposed to be basing
all of their appeal deliberations — is being kept secret from this taxpayer, suggesting
misbehavior not only of Judge Rossiter, Jr but of the US 8th Court of Appeals, in
refusing to conduct the appeal on the ALJ Welp record as required.
QUESTION 21: ANSWER: The unlawful packing by former governor Ben Nelson
of the Nebraska Supreme Court with all Democrat Judges, many not from
Nebraska, in or about 1998, after harassing existing 1998 Republican Judges to quit
in a very secretive manner with secret accusations never published and apparently
of the most vicious type, has been a disaster for the people of Nebraska because the
all Democrat Nebraska Supreme Court, which about 2012 had a Republican Chief
Judge appointed, has been ignoring the Federal Civil Rights Act protections of
criminal defendants in 42 USC 1983 subsections 1603-1604 and 2766-2767
regarding medical care of the accused who in many cases are infected with brain
diseases caused by some variant of the 300 worldwide subspecies of Lyme disease,
requiring the reconsideration of all Supreme Court cases since 1981.
Page 9

QUESTION 22- ANSWER- Hiding evidence is a federal crime, and the February
24, 2020 order to conceal the Welp ALJ record, though entered at the direction of
the court with no named judges, is a probable violation of 18 USC 2071, making
hiding evidence a crime. The ALJ Welp record is mandatory result of the 1998 IRS
Restructuring and Reform Act, an effort to stop the IRS from sabotaging individual
taxpayers with massive tax claims. In this case, Arthur Welp, the AU, has
determined that James Widtfeldt owes no federal estate or gift taxes and that
record is required to be the record and probably the only record available to the 8th
Circuit Court of Appeals, and yet misbehaving Judge Rossiter, JR and unnamed US
8th Circuit Court of Appeals Judges are ordering that Welp record hidden and have
not been following or studying the Welp AU record, making the appeal void and
restoring the Welp determination of no federal estate or gift tax.
QUESTION 23- ANSWER- The hiding of evidence by Judge Rossiter, Jr and the
US 8th Circuit Court of Appeals is being used to conceal the Arthur Welp AU record
which should be the centerpiece of the appeal anchthe centerpiece of both Judge
Kroupa and Judge Rossiter, Jr. decisions, but it is-not, and this is misbehavior by
Judge Rossiter, Jr and the as yet unnamed 8th Circuit Court of Appeals Judges who
have instructed Clerk Gans to hide the Welp record, and is grounds for and should
be used to remove them under 18 USC 2071 which defines the hiding of evidence as
a crime.
QUESTION 24- ANSWER- By hiding the Welp record, and hiding the
determination by Welp that James Widtfeldt owes no federal estate or gift tax,
Judge Rossiter and others have for more than 20 years deprived James Widtfeldt of
refund of payments in 19p.9;2000 totaling $193,362.36 to the US Treasury, which
with 35 percent inflation per annum and 15 percent interest per annum has a
present value of over $642 million. Not only is Judge Rossiter and the US 8th Court
of Appeals hiding Welp AU determination that no tax is due, but Judge Rossiter
has compounded the wrongdoing by trying to. force a federal marshall sale of
Widtfeldt real estate, all of which was determined by AU Welp to be purchased and
not inherited by James Widtfeldt about half from Widtfeldt parents-and about half
from others, following Albert Widtfeldt 1973 near fatal heart attack and a “Get your
affairs in order” letter from the family doctor George John Carstens.
QUESTION 25- ANSWER: Judge Robert Rossiter, Jr. failed to follow the Welp
AU record from 2002-2012 and accordingly Judge Rossiter Jr decisions are
Page 10

nullified and Welp determination of no Widtfeldt federal estate or gift tax due is
now final.
QUESTION 26: ANSWER: The use of a Pitney Bowes postage machine enables the
operator to alter postmark dates and greatly delay delivery to use up appeal times,
before the supposed addressee is given notice. Something like this is being used by
at least one judge in the US 1* Circuit District Court, and is obstructing Widtfeldt
ability to protect himself in court by obstructing timely delivery of court notices.
QUESTION 27- ANSWER- James Widtfeldt did all the work and received the
Ph.D. for underwater sound transmission in 1977, and the salary for Ph.D. research
at the Office of Naval Research for which James Widtfeldt qualified is now $1
million per year. James Widtfeldt should be receiving social security based on the
$1 million per year salary, even though the IRS has obstructed and sabotaged all of
Widtfeldt activities since the Administrative Law Judge Welp 2004 determination
that James Widtfeldt owes no federal estate or gift tax, preventing Widtfeldt from
participating in or getting the ONR job.
QUESTION 28: ANSWER: The wrongful tax hen at book 14 page 10646 of the Holt
County Tax Liens entitles James Widtfeldt to damages under IRC sections 7432
and 7433 of $1 million per day from fifing until the lien is removed.
QUESTION 29: ANSWER: The wrongful attempt to have a tax sale of Widtfeldt
property on March 5, 2020 with no tax due hearing, and with credit of
$642,979,488.93 from the 1999-2000 payments of $36,000 on 11-19-1999 and
$156,955.92 and $406.44 on 2-15-2000 plus 85 percent inflation and 15 percent
interest owed by the US Treasury to James Widtfeldt, and a determination by ALJ
Welp in 2004 that Widtfeldt owed no estate or gift tax, precluding all the fictional
Rossiter, Jr Orders and Judgments and the fictional US Tax Court orders, excepting
the April 26,2011 Orders denying Widtfldt motions which when denied restored the
Welp determinations of zero federal estate and gift tax due.
QUESTION 30: ANSWER: The Rossiter, Jr fraudulently ordered tax sale of March
5, 2020 while the US was in lockdown over the COVID 19 Virus alert , was a
wrongful exercise of Judicial authority since Judge Rossiter had been removed from
office and disqualified in the orders of Judge Kroupa from April 26, 2011 and
Section 1101 of the Chapter 11 Taxpayer Rights and Examination Activities of the
said 1998 IRS Restructuring and Reform Act, authorizing $1 million damages to
Page 11

James Widtfeldt by the federal government for each dollar of the attempted
fraudulent ordered tax sale of March 5, 2020.
QUESTION 31: ANSWER: The Lyme epidemic from 1981 through the present
with no good treatment until the 2013 discovery that the sugar stevia could be used
to give several ordinary antibiotics the ability to kill the Lyme or Borrelia
Burgdorferi, hereinafter Bb, spirochete, greatly decreased the value of Widtfeldt
property by approximately a factor of 100 thereby reducing the supposed estate and
gift taxes to zero.
QUESTION 32-' ANSWER: Real estate values on private property have been
wrongly inflated by the United States hiding or ignoring the Bb infections among
property owners. The recent ICE raid on the O’Neill area on or about August 7,
2018 resulted in about 170 illegal aliens being deported who had been working for
about $5 per hour or half the minimum wage, with various fees paid of about $1 per
hour per illegal laborer to Juan Pablo Sanchez Delgado, which artificially and
unlawfully inflated real estate since the labor scheme was illegal and tended to prop
up and increase property values.
QUESTION 33; ANSWER: James Widtfeldt. is owed the present value plus
interest of 15 percent per annum plus inflation of 85 percent per annum from 19992000 when three payments were made to the US Treasury, and later Arthur Welp,
ALJ determined the payments were not due as of November 2004 and had to be
returned to James Widtfeldt, in the present value exceeding $642 million.
QUESTION 34: ANSWER: Wrongful Judge Rossiter is out of the chain of appeal in
the ALJ Arthur Welp determination that James Widtfeldt as of 2004 and thereafter
owes ho federal estate or gift tax and that the ALJ Welp record must be used on any
appeals for the appeals to be valid and not nullified. Both the supposed US Tax
Court 15907-10 appeal and the Rossiter US District Court 8;18 cv 0453 appeals
failed to use the Welp record and hence are nullified to return to the Welp
determinations of no estate and no gift tax due. The first and only allowed appeal
was to the US Tax Court in 15907-10, thence to the 8th Circuit in case 11- 2285
where a Petition for Re Hearing en banc was denied on March 26, 2012, and thence
to the US Supreme Court where at least two petitions for certiorari were not
granted; Judge Rossiter case 8;18 cv 0453 in the US District Court was precluded
by the earlier US Tax Court 15907-10 chain of appeals, and again precluded as a
wrongful second appeal already precluded by the first appeal.
Page 12

QUESTION 35: Answer- Yes, Schiff, Pelosi and Schumer and Ben Nelson
appointed judges wrongfully by harassing existing Republican Judges to hide Lyme
and Covidl9 epidemics.
QUESTION 36- ANSWER- Yes the alleged discrimination cases in federal court
and Nebraska against Widtfeldt from 2006-2009 in Lancaster County, Nebraska
justify award of $1 million per day under Chapter 26 Section 7433 to James
Widtfeldt from 2006 to and through payment in 2020.
QUESTION 37- Answer- Yes Widtfeldt real estate values were and are wrongly
inflated by a factor of ten since 2006 due to wrongful interest rate reductions to try
to conceal anti-business Obama tax laws and other factors and entitle .Tamps
Widtfeldt to refund of 90 percent of real estate values from 2005 through 2020.
QUESTION 38- Answer: The COVID 19 virus has increased inflation rates in the
US from 35 percent per annum to 85 percent per annum entitling James Widtfeldt
to reimbursement at those rates plus interest for taxes wrongly retained from 19992000.
QUESTION 39- Answer: Annual treatment of Lyme disease by ajuvant Stevia and
antibiotic once per year of each citizen in the US would greatly reduce crime and
imprisonment in the US as the 300 subspecies of Lyme greatly exaggerate the US
Prison Population and costs to the US Government for prisons and imprisonment.
QUESTION 40: Answer Imprisonment and incarceration in the US would be
reduced by about 95 percent by annual treatment of all citizens and residents with
stevia as ajuvant and antibiotic Ceftin or Doxycycline.
QUESTION 41: Answer: Lyme treatment as described in Question 40 and above of
all world leaders would greatly reduce destructive behavior among world leaders so
treated.
QUESTION 42-' Answer: The benefit of requiring all world leaders and those near
to power in each nation to have annual treatment for the 300 subspecies of Lyme
would be to avoid the illnesses of leaders largely demonstrated in pages 507 through
523 of the 1983 book Justice at Nuremberg—The first comprehensive Hramatin
account ofthe trial ofthe Nazi Leaders bv Robert E. Conot, ISBN 0-06-015117X,
1983 Harper and Row, a book describing the trials following WWII of the German
leaders captured and held for crimes and the description of the diseases seeming to
afflict the said leaders and causing various wrongful perceptions of the world,
Page 13

diseases which would and should be treated now to prevent development of the said
diseases among world leaders and those near to power.
QUESTION 43^ Answer^ Wrongful tax executions with no validity being concocted
out of the far left Democrat appointments to the IRS are causing significant
impairment and prevention of just outcomes of political races.
QUESTION 44: Answer: The law called Obamacare is unconstitutional for the
reason that it is being used to obstruct medical care and to bypass the lengthy
exhausting and exacting evaluations of tax liability in turn for outrageous corrupt
tax exactions and silencing of Republican candidates and fundraising for
Republicans.
QUESTION 45: Answer: Obamacare is being used to detect medical travel of
James Widtfeldt and probably other taxpayers to sabotage the medical care and
prevent reasonable participation in political races, and to try to set up tax litigation
\
to conflict with political activity.
QUESTION 46: Answer: Yes the IRS uses its position as Administrator of
Obamacre to unlawfully interfere with the political and tax ramifictions of James
Widtfeldt activities.
QUESTION 47: Answer: Meat packing plants are being used to interfere with the
price of agricultural animals being raised in the US by communicating COVID 19 to
the workers in the packing plants and panicking workers into obstructing crucial
jobs in the US economy.
QUESTION 48: Answef^ The Nebraska Supreme Court, until recently all
Democrat wrongly pushed through by Democrat Ben Nelson after harassing all
Republican Judges in the State Bar and Courts, is wrongly refusing to test for Lyme
in citizens resulting in violations of their Federal Civil Rights in 42 USC 1983 for
failure to give testing and treatment of Lyme.
QUESTION 49: Answer: James Widtfeldt fully bought our his parents during 1973
and Albert Widtfeldt heart attack and Gusteva Widtfeldt repeat pneumonis
infections, and 1994. The IRS agent Welp approved the buy out but only by 2004
and now the IRS is trying to hide the buy out in violation of 1998 IRS Restructuring
and Reform Act entitling James Widtfeldft to damages of $1 million per day from
1994 to US Treasury refund of 1999-2000 payments to the IRS plus interest and
penalties of 15 percent interest and 85 percent inflation.
Page 14

QUESTION 50: Answer: Yes Lyme disease greatly decreased real estate values by
a factor of ten or more before Lyme was greatly advanced in treatment by the 2013
discover of Adjuvant Stevia role in treatment of Lyme.
QUESTION 51- Answer. Yes, this case is of such imperative public importance as
to justify deviation from normal appellate practice and to require immediate
determination in this Court. 28 USC 2101(e) For the reason that this case has been
wrongly re-started by Judge Rossiter, Jr. who has skipped both the pre-trial in
December, 2019 and trial dates in January, 2020, that Judge Rossiter set, after it
was fully decided in Widtfeldt favor by Judge Kroupa in the US Tax Court on April
26, 2011. All of Judge Rossiter, Jr orders have been precluded by the Orders of
Judge Kroupa in the US Tax Court in case 15907-10 on April 26, 2011. Because the
IRS in both the Judge Kroupa case in the US- Tax Court and the Judge Rossiter, Jr.
case in the US District Court of Nebraska failed to put the decision of
Administrative Law Judge Welp in the court file as evidence, Welp’s findings and
orders of no estate or gift tax due from Widtfeldt, and refund of all payments made
by Widtfeldt to the IRS in 1999-2000 are now mandatory. The Kroupa US Tax
Court case and the Rossiter, Jr. US District Court cases both required putting the
ALJ Welp record in evidence, discussion of what the IRS thought was wrong with
the Welp decision, and a time for the Appellate Court to decide. In both cases the
IRS ignored or tried to hide the ALJ Welp record and hence the US District Court
for Rossiter and the US Tax Court for Judge Kroupa had no choice but to affirm the
ALJ Welp order refunding Widtfeldt payments plus inflation and interest and
deciding as did Welp that no estate or gift tax is due.
QUESTION 52* Answer* Because Arthur Welp, ALJ was appointed to audit
Widtfeldt purchase from his parents by the Chief Judge of the US Tax Court, the
Welp analysis must be produced in any effective appeal of Welp’s decision, which
neither Agent Polsky in US Tax Court case 15907-10, presided over by Judge
Kroupa, nor agents Kelly and Shoemaker in US District Court case 8:18 CV 0453 in
the Nebraska District Court before Judge Rossiter, Jr. did, this reduces all the
appeals of Welp back to the findings and determination of appeal Judge Welp, that
James Widtfeldt had in fact paid off his parents in full between 1973 heart attack of
Albert and pneumonia of Gusteva, and the 1994 culmination of purchase by James
from his parents, all as affirmed in 2004 by Arthur Welp, AU. The efforts of
Rossiter, Jr. in 8;18 CV 0453 in the US District Court of Nebraska and in the US
Court of Appeals 19*3372 by Colloton, Benton, and Kobes, are hence all nullified by
their failure to introduce the decision of specially appointed agent Welp as an
Page 15

Administrative Law Judge in 2002 through 2012, and Welp determinations of no
estate or gift tax due from Widtfeldt remain final.

CONCLUSION
Two basic separate de novo judgments without reference to the Arthur Welp AT.T
decisions of 2002 through 2012 were made. Failure to reference the Welp decision
in the US Tax Court, nullified the US Tax Court decision which reverted to the
Welp determination of no tax due from Widtfeldt, and failure to reference the Welp
decision in the US District Court case 8:18 CV 0453 again reverted that case and its
appeal to the Arthur Welp determination that no estate, gift or inheritance tax is
due to the US Government or State of Nebraska.
CONCLUSION l: TEN VIOLATIONS PER YEAR PER AGENT CAUSE $1.6
BILLION IN PENALTIES NOW OWED TO JAM^S WIDTFELDT UNDER
CHAPTER 11 SECTION 1101 OF THE CIVIL DAMAGES FOR UNAUTHORIZED
GOVERNMENT COLLECTIONS PROVISION, LATER INCLUDED IN THE
INTERNAL REVENUE CODE SECTIONS 7432 AND 7433.
Judge Rossiter, JR. has violated the Taxpayer Rights and Examination Duties owed
to both Albert and Gusteva Widtfeldt and James Widtfeldt, and with at least 10
different IRS agents, there are at least ten violations per year per agent since at
least 2004, resulting in at least 16 years times 10 violations times 10 agents times
the $1 million damages to Widtfeldt allowed in Chapter 11, section 1101 of the Civil
Damages for Unauthorized Collection Action, or $1.6 billion now owed to James
Widtfeldt.
CONCLUSION % VIOLATIONS OF THE FEDERAL CIVIL RIGHTS ACT IN
FAILURE TO TEST FOR LYME
On top of the IRS wrongdoing, there are about 3 million persons in prison in the US
and another 3 million convicted without prison, which the Nebraska Supreme Court
and probably most other state Supreme Courts has or have repeatedly tried to hide
by bringing wrongful punitive actions against James Widtfeldt and probably any
other person who might be intelligent enough to discern the wrongdoing —all
convicted persons have failed to receive necessary pre-trial timely testing for Lyme
infections required by the 42 USC Section 1983 Federal Civil Rights Act, to
successfully defend against their accusers, and examination for the 300 world wide
Page 16

Lyme diseases which have been hidden ever since the first Clinton presidency in or
about 1992 under wrongful national secret laws which were wrongly interpreted by
President Clinton to justify hiding infections of Lyme Disease as an offensive germ
warfare agent developed or studied by the United States (See Lab 257- Caution the
Disturbing Story ofthe Government.’a Secret Germ Laboratory.; by Michael
Christopher Carroll ISBN978"0"06"078184"2, Harper Press 2004'5), many of which
can cause psychoactive alterations or make an infected person unwittingly perform
criminal actions which proper medical treatment of Lyme disease would prevent.
See also Bitten, the Secret History of Lyme Disease and Biological Weapons by Kris
Newby, ISBN978-0-06-289627-8, Harper Collins Publishers
CONCLUSION 3: WIDTFELDT LEGAL FEES PREVENTED BY ALL
DEMOCRAT WRONGFUL NEBRASKA SUPREME COURT APPOINTED BY BEN
NELSON TO ENCOURAGE BRAIN DISEASE TO CAUSE CRIMINAL ACTIONS
AND INFLATE DEMOCRAT LAWYERS FEES
For these transgressions, James Widtfeldt should have earned a lawyer fee of one
third of $1 million each times 6 million people or $2 trillion dollars in damages, tax
free, even if hiring other lawyers to do part of the work. See 42 USC 1983 Section
2766-2767 serious medical need of pre trial detainees.
All of the above do nothing to repay the $193,362.36 paid in 1999-2000 to the US
Treasury by Gusteva Widtfeldt now increased to over 1 billion dollars WITH
INTEREST AND INFLATION ADJUSTMENT more or less paid in, in 1999-2000 to
the US Treasury, and never owed and never returned, with 15 percent interest and
35 percent inflation.
All of the said wrongful charges and assessments claimed from but never
repaid to Widtfeldt ever since 1999 while the IRS was supposedly or pretending to
be calculating whether Widtfeldt had fully paid his parents were wrongfully
designed to distract and cause financial or disciplinary wrongdoing and hence were
a wrongful action by the all Democrat Ben Nelson packed Nebraska Supreme Court
to financially destabilize James Widtfeldt justifying removal of the members of the
Nebraska Supreme Court or at least those appointed by Ben Nelson and
participating in that wrongdoing thereafter.
CONCLUSION 4- Judges Rossiter, Jr., District Judge, and Colloton, Benton, and
Kobes, Court of Appeals Judges, are wrongfully trying to bypass the US Tax Court
Order that Arthur C Welp, evaluate the Widtfeldt tax situation and that all Judges
Page 17

thereafter must follow or analyze Welp’s decision. Said judges Rossiter, Jr. and
Colloton, Benton and Kobes are ripe for removal or other discipline.
^—James Widtfeldt 120320
CERTIFICATE OF SERVICE- Comes now James Widtfeldt and certifies that a true
copy of the above and foregoing is being served within three days of filing with the
US Supreme Court on each of the parties herein and the Courts from which the
matter is appealed. A copy of the address label sheet is being appended to assist
mailing, and the reader in getting correct addresses.
James Widtfeldt
CERTIFICATE OF QUALIFICATION WITH PAGE LIMITS AND WORD LIMITS
Comes now James Widtfeldt and certifies that this brief is in compliance with page
numbers (18 pages) and word counts (7,133 words approximately) including
certificates with which James Widtfeldt is familiar. The brief is so much smaller
than most samples that little counting is being done due to the certainty of
compliance. The letter size format is directed by the US Supreme Court Order of
September 11, 2020.
ames Widtfeldt

4-'

Page 18

